TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Standard Database Security Configurations
                    Are Adequate, Although Much Work Is
                   Needed to Ensure Proper Implementation



                                         August 22, 2007

                              Reference Number: 2007-20-129




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 2(f) = Risk Circumvention of Agency Regulation or Statute

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           August 22, 2007


 MEMORANDUM FOR CHIEF INFORMATION OFFICER



 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Standard Database Security Configurations Are
                             Adequate, Although Much Work Is Needed to Ensure Proper
                             Implementation (Audit # 200620033)

 This report presents the results of our review of the adequacy of the Internal Revenue Service’s
 (IRS) standard database security configurations and effectiveness of their implementation. This
 audit is part of the statutory audit coverage under the Information Systems Programs and is
 included in the Treasury Inspector General for Tax Administration Fiscal Year 2007 Annual
 Audit Plan.

 Impact on the Taxpayer
 Database security controls are an organization’s last line of defense in protecting sensitive data.
 While the IRS’ standard database security configurations are adequate, they are not effectively
 implemented on critical databases. Failure to adequately secure these databases places nearly all
 individual and business taxpayer accounts at risk of unauthorized access, which can lead to
 identity theft or fraud.

 Synopsis
 IRS databases contain some of the most sensitive information in the Federal
 Government–taxpayer personal and financial information. While security of any computer
 system is dependent on the number and strength of the layers of security protecting it, the last
 and possibly best line of defense in protecting data are database security controls.
                   Standard Database Security Configurations Are Adequate,
               Although Much Work Is Needed to Ensure Proper Implementation



The IRS has developed adequate standard database security configurations that are aligned with
Federal Government guidelines and best practices. However, these standard configurations have
not been effectively implemented. We tested basic database security controls on 17 databases
from 8 tax administration applications. Collectively, these databases failed 30 percent of our
tests. Using the IRS’ rating methodology for standards compliance, all databases we reviewed
earned the lowest possible rating. Exploitation of the vulnerabilities found could result in
unauthorized accesses to taxpayer information and ultimately result in identity theft or fraud.
The control weaknesses occurred because standard database security configurations were poorly
communicated, security roles and responsibilities were not assigned or carried out, and tests to
detect noncompliance with standard configurations were inadequate.
Many of the employees supporting the applications we reviewed were unaware of the IRS’
standard database security configurations. In fact, some employees first became aware the
configurations existed during interviews conducted during this audit. Several factors contributed
to the poor communication of the standard configurations, including problems with the
announcements of the issuance of the configurations and posting of an outdated version of the
configurations on an internal IRS web site.
Also, the roles and responsibilities for securing databases have not been fulfilled. Key security
responsibilities, such as ensuring standard database security configurations are implemented,
have not been assigned. Managers and employees with responsibility for securing the
applications have not taken their security responsibilities seriously and managers are not holding
employees accountable for failing to implement database security controls. Their approach to
security appears to be reactive, waiting for others to point out security actions that need to be
taken. However, security requires a proactive approach. If such an approach had been taken,
managers and employees would have sought out the configurations instead of waiting for them to
be delivered to their desktops.
We also found inadequate processes for detecting noncompliance with standard database security
configurations, although progress is being made. The Mission Assurance and Security Services
organization is responsible for assessing the security of computer systems and tracking
compliance with IRS standard configurations. Security testing in 2006 for two of the
applications we reviewed did not include tests of database controls. The Mission Assurance and
Security Services organization did revise its security testing and evaluation methodology for the
2007 testing cycle, which now includes more testing of database controls. In addition, the IRS
currently does not have tools to test compliance with standard database security configurations.
Efforts are underway to conduct more testing, but the IRS has not developed a project plan or
procedures to aid in managing this effort. In July 2007, the information technology security
program within the Mission Assurance and Security Services organization was realigned to a
new Cybersecurity organization, reporting to the IRS Chief Information Officer.


                                                                                                   2
                   Standard Database Security Configurations Are Adequate,
               Although Much Work Is Needed to Ensure Proper Implementation




Recommendations
We recommended the Chief Information Officer ensure the database security control weaknesses
we identified are corrected, re-publicize standard database security configurations, and ensure
the Modernization and Information Technology Services organization’s internal web sites refer
to the appropriate web site for current security configurations. In addition, we recommended the
Chief Information Officer ensure security and administration responsibilities are properly
assigned for all IRS databases and investigate alternatives for ensuring employees are aware of
their database security responsibilities, with managers holding their employees accountable for
meeting those responsibilities. We also recommended the Chief Information Officer ensure
security testing evaluates compliance with standard database security configurations and develop
an implementation plan and standard operating procedures for the IRS’ database compliance
assessment tool.

Response
The Chief Information Officer agreed with all of our recommendations. Planned corrective
actions include adding specific weaknesses identified in this review to corrective plans of actions
and milestones. The IRS’ standard database security configurations will also be
re-communicated throughout the agency. A memorandum will be distributed within the
Modernization and Information Technology Services organization reiterating that internal web
sites refer to the appropriate web site for current security configuration guidance. The Chief
Information Officer will assign a project officer and develop a project plan to coordinate
activities required to resolve all IRS-wide issues associated with the implementation of database
security controls in IRS systems, including activities to ensure all IRS databases have individuals
assigned to specifically perform security and administration responsibilities. Quarterly reviews
will be performed to ensure compliance with IRS policy for these responsibilities, with
noncompliance reported to IRS executives for appropriate action. The Chief Information Officer
also agreed to include standard database security configurations in the list of controls tested
annually. Also, an implementation plan and procedures will be developed for the IRS’ database
compliance assessment tool. Management’s complete response to the draft report is included as
Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
202-622-8510.




                                                                                                  3
                        Standard Database Security Configurations Are Adequate,
                    Although Much Work Is Needed to Ensure Proper Implementation




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Standard Database Security Configurations Are Adequate ..........................Page 3
          Standard Database Security Configurations Have Not Been
          Effectively Implemented...............................................................................Page 4
                    Recommendation 1:..........................................................Page 7

                    Recommendations 2 through 4:...........................................Page 8

                    Recommendations 5 through 7:...........................................Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Scope of Database Assessment............................................Page 14
          Appendix V – Details of Database Assessment............................................Page 16
          Appendix VI – Management’s Response to the Draft Report ......................Page 21
           Standard Database Security Configurations Are Adequate,
       Although Much Work Is Needed to Ensure Proper Implementation




                       Abbreviations

IRS              Internal Revenue Service
NIST             National Institute of Standards and Technology
SQL              Structured Query Language
                     Standard Database Security Configurations Are Adequate,
                 Although Much Work Is Needed to Ensure Proper Implementation




                                           Background

All Federal Government systems contain data that require protection under Office of
Management and Budget and Congressional mandates. This protection is typically applied in
layers around a computer system. The first layer is the perimeter of the system, where network
controls identify and prevent attacks originating from outside an organization. Successive layers
of controls in the operating systems, applications, and databases are usually needed to protect an
organization’s data. Consequently, a computer system’s security is dependent on the number
and strength of the layers of protection. However, because database software stores and manages
an organization’s data, database security controls are the
last and possibly the best line of defense in protecting
                                                               Database security controls are
this critical asset.                                           the last and possibly the best
For the Internal Revenue Service (IRS), taxpayer                 line of defense in protecting an
                                                                       organization’s data.
personal and financial information are the most critical
assets it is charged with safeguarding. Due to the
sensitivity of this data, the IRS could be a target for malicious users intent on committing
identity theft. Attacks on this data could also result in financial losses to the Federal
Government, privacy violations, and breaches of national security. Consequently, the IRS’
database controls need to be strong.
The Mission Assurance and Security Services organization1 is responsible for establishing IRS
computer security policies, assessing the security of computer systems, and tracking compliance
with IRS policies and standards. Responsibility for implementing database security policies and
standards generally falls to the Modernization and Information Technology Services
organization. IRS business units also share responsibility for implementing computer security
controls.
While the IRS uses more than 30 different database software products and has more than
2,100 database installations, 3 databases (Microsoft’s Structured Query Language [SQL] Server,
IBM’s DB2, and Oracle database systems) are by far the most widely used. Our review focused
on answering the questions of whether the IRS’ standard database security configurations are
adequate and effectively implemented on these three databases.




1
 In July 2007, the information technology security program within the Mission Assurance and Security Services
organization was realigned to a new Cybersecurity organization within the Modernization and Information
Technology Services organization. The new organization reports to the IRS Chief Information Officer.
                                                                                                         Page 1
                     Standard Database Security Configurations Are Adequate,
                 Although Much Work Is Needed to Ensure Proper Implementation



This review was performed at the Chief Information Officer and Mission Assurance and Security
Services organization offices in New Carrollton, Maryland, the Enterprise Computing Center2 in
Memphis, Tennessee, and the IRS campuses3 in Chamblee, Georgia, and Austin, Texas, during
the period January through April 2007. The audit was conducted in accordance with
Government Auditing Standards. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




2
  IRS Computing Centers support tax processing and information management through a data processing and
telecommunications infrastructure.
3
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                          Page 2
                     Standard Database Security Configurations Are Adequate,
                 Although Much Work Is Needed to Ensure Proper Implementation




                                     Results of Review

Standard Database Security Configurations Are Adequate
Minimum Security Requirements for Federal Information and Information Systems (Federal
Information Processing Standard 200) identifies minimum security requirements in
17 security-related areas addressing the management, operational, and technical aspects of
protecting Federal Government information and information systems. The National Institute of
Standards and Technology’s (NIST)4 Recommended Security Controls for Federal Information
Systems (Special Publication 800-53) aids Federal Government agencies in implementing these
requirements by providing guidelines for selecting computer security controls. Additionally,
Federal Government agencies publish requirements for specific controls for use within their
organizations.
To further aid Federal Government agencies in implementing security controls, the NIST
maintains a repository of security configuration checklists it and other organizations, such as the
Defense Information Systems Agency, have developed.5 These checklists provide a series of
instructions for securing a particular computer product, such as an operating system or database
software.
In March 2006, the IRS issued standard security configurations for all IRS databases. We
reviewed these configurations and determined they are aligned to management, operational, and
technical control areas specified in NIST Special Publication 800-53 and adequately address
database-specific security controls in these areas. We also compared the configurations for
specific database software with database security checklists from the NIST repository, published
by the Defense Information Systems Agency, and determined the IRS configurations adequately
include the controls from these checklists. Therefore, we conclude the IRS has adequate
database security configurations for its most widely used database software.
Although security configurations are adequate for its most widely used databases, nearly
one-third of the IRS’ moderate-risk applications use database software without a
database-specific standard security configuration. We plan to perform future audits of these
applications to determine whether their databases are secured according to IRS standards.


4
  The NIST, under the Department of Commerce, is responsible for developing standards and guidelines, including
minimum requirements, for providing adequate information security for all Federal Government agency operations
and assets.
5
  Checklists are developed in accordance with Security Configuration Checklists Program for Information
Technology Products (NIST Special Publication 800-70).
                                                                                                         Page 3
                   Standard Database Security Configurations Are Adequate,
               Although Much Work Is Needed to Ensure Proper Implementation



Standard Database Security Configurations Have Not Been Effectively
Implemented
While IRS standard database security configurations are adequate, they have not been effectively
implemented. We reviewed 17 databases from 8 applications supporting critical tax
administration business processes, such as processing of tax returns, receipt of tax payments, and
correspondence with taxpayers. These databases were tested for compliance with controls
required by IRS standard database security configurations. The tests included basic database
security controls in the areas of identifying and authenticating users, granting access based on
job necessity, recording user activity, and updating database software. Appendix IV provides
additional details on the scope of our assessment.
Collectively, the databases we reviewed failed 30 percent of the more than 800 controls tested.
Included in these results are failed tests for controls aimed at preventing high and moderate risk
vulnerabilities. Most databases failed tests in all four basic security control areas tested. The
IRS has established a method for rating operating system compliance with IRS requirements and
assigning a color rating. Using this same methodology, we determined that each database
received the lowest rating possible, RED. Appendix V provides additional details on the results
of our tests.
Exploitation of the vulnerabilities found could result in the unauthorized access to taxpayer
information and could ultimately result in identity theft or fraud. The systems we reviewed
process transactions for nearly all individual and business taxpayer accounts, including
paper returns, electronic returns, and electronic payment of taxes. Between October 2006 and
April 2007, 2 of the databases we reviewed processed nearly 153 million electronic transactions.
If these systems were to be corrupted or disabled, the IRS tax processing system could be
crippled, preventing millions of taxpayers from filing their tax returns or paying their taxes.
The control weaknesses we found occurred because standard database security configurations
were poorly communicated, security roles and responsibilities were not assigned or carried out,
and enforcement of standard configurations is inadequate. The following sections further discuss
these issues.

Standard database security configurations were poorly communicated
The standard database security configurations are posted on the Mission Assurance and Security
Services organization web site and accessible to all IRS employees. During interviews, however,
we found many employees with key security responsibilities for the applications we reviewed
were unaware of the IRS standard database security configurations. For many, their first notice
of the existence of the configurations was through these interviews. For example, we found:
   •   Employees in two application project offices did not receive notice of the issuance of the
       configurations. For the applications we reviewed, application project offices are

                                                                                           Page 4
                   Standard Database Security Configurations Are Adequate,
               Although Much Work Is Needed to Ensure Proper Implementation



       responsible for configuring SQL and DB2 databases or managing contractors that
       manage database configurations.
   •   One business unit owner was unaware of the IRS standard database security
       configurations. Business owners are responsible for overall security of their applications.
Employees were unaware of the standard configurations due, in part, to poor communications by
the Mission Assurance and Security Services organization with other business units. These
employees were not notified that the configurations had been posted to the Mission Assurance
and Security Services organization’s web site. We also reviewed the web site of the organization
responsible for maintaining Oracle database standard configurations, which is part of the
Modernization and Information Technology Services organization. We found the web site did
not contain current configurations or a link to the Mission Assurance and Security Services
organization’s web site. After we raised this issue with IRS management during this review, a
link to the correct version of the configurations was posted to the web site.

Database security responsibilities were not carried out
The IRS has defined roles and responsibilities for administering and securing its databases. In
particular:
   •   System owners have ultimate responsibility for those systems that support their missions.
   •   Database administrators are responsible for maintaining a secure database environment.
   •   Security specialists are responsible for ensuring IRS database security requirements, as
       documented in standard database security configurations, are met. Security specialists
       coordinate with database administrators and other operational personnel to ensure
       requirements are met.
However, some key database security responsibilities were not assigned. Specifically, database
administrators were not assigned for SQL Server and DB2 databases. Currently, application
developers manage the configuration of these databases and send implementation instructions to
server administrators. In addition, security specialist roles were not assigned for most of the
applications we reviewed. None of the specialists identified were assigned to the Mission
Assurance and Security Services organization, where security specialists are typically located.
Security responsibilities were not taken seriously by the managers and employees responsible for
some of the applications we tested. For example:
   •   The project office for a contractor-managed application was aware of the standard
       database security configurations issued in March 2006. However, project office
       personnel informed us that in 2006 they did not require the contractor to implement the
       configurations due to higher priorities, such as system upgrades. In 2007, a limited
       budget prevented implementation of the requirements.

                                                                                           Page 5
                        Standard Database Security Configurations Are Adequate,
                    Although Much Work Is Needed to Ensure Proper Implementation



      •    For another contractor-managed application, we were informed that database software
           updates could not be installed at any point during the IRS’ tax filing season6 to ensure the
           application’s services would not be disrupted. However, another tax filing application we
           reviewed, managed by IRS personnel, was adequately updated. In our compliance
           ratings, contractor-managed applications scored among the lowest of all applications
           reviewed.
      •    In response to our testing, project office personnel for two applications cited perimeter
           controls as mitigating factors to the risk that database control vulnerabilities pose.
           However, it is well established that insiders pose as great or greater risk to computer
           security than external attackers.
      •    Employees in the division responsible for managing Oracle databases were unaware of
           the issuance of standard database security configurations, despite their involvement in the
           development of the configurations.
Some developers also made design choices for their applications that make it difficult to
maintain security. For example, the project office for an application that did not have database
software updates installed informed us the database software could not be kept current because
the version needed to be compatible with other commercial software used by the application.
Consequently, the database software cannot be consistently kept at the most current version.
To ensure database security requirements are implemented, the IRS needs to ensure security
roles and responsibilities are appropriately assigned. In addition, the examples we cite indicate
that personnel responsible for securing databases are not being held accountable for failing to
implement database security controls. Their approach to security appears to be reactive, waiting
for others to point out security actions that need to be taken. However, security requires a
proactive approach. If such an approach had been taken, managers and employees would have
sought out the configurations instead of waiting for them to be delivered to their desktops.

Testing to detect noncompliance with standard database security configurations
was inadequate
The Mission Assurance and Security Services organization is responsible for assessing the
security of computer systems and tracking compliance with IRS policies and standards. There
are two primary means by which the Mission Assurance and Security Services organization
accomplishes these responsibilities:




6
    The period from January through mid-April when most individual income tax returns are filed.
                                                                                                   Page 6
                      Standard Database Security Configurations Are Adequate,
                  Although Much Work Is Needed to Ensure Proper Implementation



    •    Security testing and evaluation (security controls tested as part of an application’s
         certification7 and accreditation).
    •    Routine compliance assessment (software tools used quarterly to assess compliance of
         systems with security standard configurations).
Our assessment of these efforts determined that the Mission Assurance and Security Services
organization has not adequately enforced standard database security configurations, but it is
making progress. Security testing and evaluation results for two of the applications we reviewed,
both tested in 2006, determined that, while application controls were tested, database controls
were not. The Mission Assurance and Security Services organization did revise its security
testing and evaluation methodology for the 2007 testing cycle, which now includes more testing
of database controls.
While the Mission Assurance and Security Services organization has compliance assessment
tools in place for computer operating systems, it currently does not have tools to test database
controls. Currently, the IRS scans databases for commonly known user accounts and passwords,
which are included in default installations of database software. We did not identify any of these
accounts for the databases we reviewed. However, the Mission Assurance and Security Services
organization currently does not have tools to test compliance with standard database security
configurations. Mission Assurance and Security Services organization management informed us
that efforts are underway to implement a testing tool by mid-summer of 2007. There are,
however, no project plans or procedures to aid in managing this effort.

Recommendations
To ensure the applications we reviewed comply with IRS database security requirements:
Recommendation 1: The Chief Information Officer should ensure the database security
control weaknesses we identified are corrected.
         Management’s Response: The Chief Information Officer agreed with this
         recommendation. Each of the database security control weaknesses that were identified
         in the specific applications will be included in corrective plans of action and milestones,
         as required by the Federal Information Security Management Act.8 Priority will be
         placed on correcting or mitigating any identified high risk weaknesses. As medium or
         low risk weaknesses are reviewed, the plans will reflect whether the weaknesses are to be
         corrected or mitigated, or whether the applicable approving official has made a risk
         acceptance determination. In addition, a project officer will be assigned to coordinate all


7
  An independent technical evaluation for the purpose of accreditation that uses security requirements as the criteria
for the evaluation.
8
  Pub. L. No. 107-347, Title III, 116 Stat. 2946 (2002).
                                                                                                               Page 7
                   Standard Database Security Configurations Are Adequate,
               Although Much Work Is Needed to Ensure Proper Implementation



       activities required to resolve all IRS-wide issues associated with the implementation of
       database security controls in IRS systems. Several of the database security control
       weaknesses, such as auditing, will be addressed as part of the IRS computer security
       material weakness corrective action plans.
To improve communication of standard database security configurations:
Recommendation 2: The Chief Information Officer should re-publicize the standard database
security configurations and coordinate with IRS organizations to ensure the configurations are
effectively distributed to necessary personnel or employees are advised to access the Mission
Assurance and Security Services organization web site where the configurations are posted.
       Management’s Response: The Chief Information Officer agreed with this
       recommendation. In July 2007, the information technology security program within the
       Mission Assurance and Security Services organization was realigned to a new
       Cybersecurity organization within the Modernization and Information Technology
       Services organization. This new organization is headed by an Associate Chief
       Information Officer for Cybersecurity, who will notify other IRS organizations of the
       database security configuration guidance posted on the Cybersecurity organization web
       site. This information will also be formally re-publicized using available
       communications capabilities supporting computer systems governance and oversight.
Recommendation 3: The Chief Information Officer should ensure the Modernization and
Information Technology Services organization’s internal web sites refer to the Mission
Assurance and Security Services organization web site for current security configurations.
       Management’s Response: The Chief Information Officer agreed with this
       recommendation. The IRS will remind the Associate Chief Information Officers in the
       Modernization and Information Technology Services organization to ensure their internal
       web sites refer to the Cybersecurity organization web site for current security
       configuration guidance. In addition, to improve uniformity in current security
       configuration guidance, the IRS will distribute a memorandum to the Associate Chief
       Information Officers reiterating the policy to post only documentation on their internal
       web sites that is owned and maintained by their organizations.
To ensure security roles and responsibilities are enforced for IRS databases:
Recommendation 4: The Chief Information Officer should ensure security and
administration responsibilities are properly assigned for all IRS databases.
       Management’s Response: The Chief Information Officer agreed with this
       recommendation. The Associate Chief Information Officer for Cybersecurity will assign
       a project officer to coordinate activities required to resolve all IRS-wide issues associated
       with the implementation of database security controls in IRS systems. The associated
       project plan will include the coordination activities required to ensure a full accounting

                                                                                             Page 8
                   Standard Database Security Configurations Are Adequate,
               Although Much Work Is Needed to Ensure Proper Implementation



       and inventory exists for all IRS databases, and that each of the databases has individuals
       assigned to specifically perform security and administration responsibilities.
       In conjunction with the IRS’ material weakness for information technology security roles
       and responsibilities, database security roles and responsibilities have been developed and
       documented in IRS manuals. At a minimum, periodic checks as part of the annual
       Federal Information Security Management Act review will be conducted to ensure
       assignment of security and administrative responsibilities are in compliance with IRS
       policy.
Recommendation 5: The Chief Information Officer should investigate alternatives for
ensuring employees are aware of their database security responsibilities, such as establishing an
element in employee performance plans specifically for carrying out their database security
responsibilities. For whichever alternative is used, managers should ensure employees are held
accountable for meeting those responsibilities.
       Management’s Response: The Chief Information Officer agreed with this
       recommendation. The Associate Chief Information Officer for Cybersecurity will ensure
       that quarterly compliance reviews by its field staff will specifically review the
       compliance with database security roles and responsibilities. Formal noncompliance
       reports will be forwarded to IRS executives so managers can take appropriate actions to
       address and resolve any employee violations. Individual managers can decide whether
       additional training or disciplinary actions are the appropriate remedy for those employees
       who fail to meet assessment standards.
       An assessment of compliance with assigned security roles and responsibilities, including
       those for databases, will be included in the IRS’ annual Federal Information Security
       Management Act assessment.
To improve the IRS’ ability to detect noncompliance with database security requirements and
emphasize the importance of database security controls:
Recommendation 6: The Chief Information Officer should ensure security testing evaluates
compliance with standard database security configurations.
       Management’s Response: The Chief Information Officer agreed with this
       recommendation. The Associate Chief Information Officer for Cybersecurity will
       include appropriate NIST 800-53 controls relating to standard database security
       configurations in the list of “volatile” controls to be tested annually.
Recommendation 7: The Chief Information Officer should develop an implementation plan
for the organization’s database compliance assessment tool that adequately defines the scope of
the databases tested, the requirements to be tested, the timing of tests, and the schedule for
implementation. To ensure security controls are adequately considered by application project
offices, application development databases should be included in the scope of database testing.

                                                                                           Page 9
                   Standard Database Security Configurations Are Adequate,
               Although Much Work Is Needed to Ensure Proper Implementation



A standard operating procedure should be developed to accompany the tool’s implementation.
These procedures should describe the process and responsible organizations for addressing the
outcome and remediation of the results of the compliance assessment tool.
       Management’s Response: The Chief Information Officer agreed with this
       recommendation. The IRS will implement a process for detecting noncompliance with
       database security requirements. This will include an implementation plan for the
       organization’s database compliance assessment tool that adequately defines the scope of
       the databases tested, the requirements to be tested, the timing of tests, and the schedule
       for implementation. In addition, standard operating procedures will be developed to
       accompany the tool’s implementation. These procedures will describe the process and
       responsible organizations for addressing the outcome and remediation of the results of the
       compliance assessment tool.




                                                                                         Page 10
                  Standard Database Security Configurations Are Adequate,
              Although Much Work Is Needed to Ensure Proper Implementation



                                                                                 Appendix I

        Detailed Objective, Scope, and Methodology

The objective of our review was to determine whether the IRS’ standard database security
configurations were adequate and effectively implemented. To accomplish this objective, we:
I.     Determined whether the IRS standard database security configurations were adequate.
       A. Determined whether current standard database security configurations existed for all
          database management systems.
       B. Assessed the adequacy of IRS standard database security configurations. For this
          analysis, we used the security configurations specified in the Defense Information
          Systems Agency Database Security checklist as criteria. To identify databases in use
          by the IRS, we used network scanning software to scan the IRS network, which
          identified services listening on specified network ports. We scanned 45 networking
          ports that are commonly used by database systems. Most IRS network segments were
          scanned, although those from the Office of Chief Counsel and the Criminal
          Investigation organization were omitted. These organizations manage their own
          databases and were not included in the scope of this review.
       C. Assessed the effect of inadequate standard configurations.
II.    Determined whether the IRS standard database security configurations were effectively
       implemented.
       A. Determined whether technical database controls specified in IRS standard database
          security configurations and the NIST Recommended Security Controls for Federal
          Information Systems (Special Publication 800-53) were implemented on IRS systems.
          We assessed controls using a database scanning tool that collected information from
          IRS databases and analyzed it to identify weaknesses. We selected applications for
          review using several factors, including being a part of the IRS tax administration
          process, database technology used (i.e., Oracle, SQL Server, or DB2), importance of
          the system, and business system owner. Mainframe computers were not included in
          this analysis because IRS standard database security configurations pertain primarily
          to computers running UNIX and Microsoft Windows operating systems. We did not
          assess the implementation of database controls on mainframe computers.
       B. Assessed the effect of database vulnerabilities on the IRS.
       C. Determined why the vulnerabilities occurred.


                                                                                       Page 11
                  Standard Database Security Configurations Are Adequate,
              Although Much Work Is Needed to Ensure Proper Implementation



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Stephen R. Mullins, Director
Joan Raniolo, Acting Audit Manager
Marybeth Schumann, Audit Manager
Michael Howard, Lead Auditor
Dan Ardeleano, Senior Auditor
Allen Gray, Senior Auditor
Abraham Millado, Senior Auditor
Jacqueline Nguyen, Senior Auditor
Midori Ohno, Senior Auditor
Larry Reimer, Senior Auditor




                                                                                     Page 12
                  Standard Database Security Configurations Are Adequate,
              Although Much Work Is Needed to Ensure Proper Implementation



                                                                 Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief Information Officer OS:CIO
       Director, Program Oversight OS:CIO:SM:PO




                                                                       Page 13
                     Standard Database Security Configurations Are Adequate,
                 Although Much Work Is Needed to Ensure Proper Implementation



                                                                                             Appendix IV

                      Scope of Database Assessment

This appendix provides additional details on the scope of the applications and database controls
tested in this review. During this review, we assessed eight applications for adequacy of the
implementation of database security requirements. Table 1 identifies these applications and the
number and location of databases tested.
                               Table 1: List of Applications Tested
                                        Database           Enterprise               Austin        Atlanta
                                        Software        Computing Center            Campus        Campus
           Application                    Used             – Memphis
 Automated Lien System                 Oracle                      1                    0              0
 Correspondence Imaging                DB2                         4                    1              1
 System
 Electronic Federal Tax                Oracle                      1                    0              0
 Payment System
 Electronic Management                 Oracle                      1                    0              0
 System
 Individual Taxpayer                   Oracle                      1                    0              0
 Identification Number
 Integrated Submission and             SQL Server                  0                    2              2
 Remittance Processing
 On Line Notice Review                 SQL Server                  0                    1              1
 Tax Exempt/Government                 SQL Server                  1                    0              0
 Entities Reporting and
 Electronic Examination
 System
Source: Treasury Inspector General for Tax Administration assessment of selected IRS databases, using data
collected from these systems.




                                                                                                       Page 14
                      Standard Database Security Configurations Are Adequate,
                  Although Much Work Is Needed to Ensure Proper Implementation



 We tested controls against the IRS standard database security configurations. We tested basic
 controls in four areas, which match the NIST Recommended Security Controls for Federal
 Information Systems (Special Publication 800-53) controls described in Table 2.
                                Table 2: Database Controls Tested
 Category                NIST Special Publication 800-53 Control           Control Number
 Access Controls         Least Privilege: The information system           Access Control – 6
                         enforces the most restrictive set of rights and
                         privileges or accesses needed by users (or
                         processes acting on behalf of users) for the
                         performance of specified tasks.
 Auditable Events        Auditable Events: The information system          Audit and
                         generates audit records for the                   Accountability – 2
                         organization-defined auditable events.
 User Identification     User Identification and Authentication: The       Identification and
 and Authentication      information system uniquely identifies and        Authentication – 2
                         authenticates users (or processes acting on
                         behalf of users).
 Database Software       Flaw Remediation: The organization identifies,    System and Information
 Updates                 reports, and corrects information system flaws.   Integrity – 2
Source: NIST Special Publication 800-53.




                                                                                           Page 15
                      Standard Database Security Configurations Are Adequate,
                  Although Much Work Is Needed to Ensure Proper Implementation



                                                                                                 Appendix V

                      Details of Database Assessment

This appendix provides additional details of the database security controls tested during this
review. As stated in the report, the databases we reviewed failed 30 percent of the more than
800 controls tested. Table 1 summarizes the test results:
                            Table 1: Summary of Control Test Results
                             Database                Percentage of Tests Failed
                             Oracle                            33 percent
                             SQL Server                        35 percent
                             DB2                               24 percent
                             All databases                     30 percent
                            Source: Treasury Inspector General for Tax Administration
                            assessment of selected IRS databases, using data collected
                            from these systems.

The IRS has established a method for rating operating system compliance with IRS requirements
and assigning a color rating. Using this methodology, we determined that each database received
the lowest rating possible, RED. Table 2 summarizes our compliance rating results:
                            Table 2: Summary of Compliance Ratings
       Database            Compliance              Average High-Risk                       Compliance
                             Score1            Vulnerabilities per Database2                 Rating
       Oracle                   71%                             8.5                            RED
       SQL Server               74%                            10.6                            RED
       DB2                      80%                             3.0                            RED
       Overall                  75%                             7.4                            RED
     Source: Treasury Inspector General for Tax Administration assessment of selected IRS databases, using
     data collected from these systems, and IRS compliance assessment guides for Windows and UNIX operating
     systems.



1
  The compliance score represents how well the standard database security configurations tested were met. Test
scores were weighted based on the level of risk associated with the configuration being tested.
2
  This average represents how many high-risk vulnerabilities were found, on average, for each of the three types of
database software tested.
                                                                                                           Page 16
       Standard Database Security Configurations Are Adequate,
   Although Much Work Is Needed to Ensure Proper Implementation



                                                   Appendix VI

Management’s Response to the Draft Report




                                                         Page 21
    Standard Database Security Configurations Are Adequate,
Although Much Work Is Needed to Ensure Proper Implementation




                                                      Page 22
    Standard Database Security Configurations Are Adequate,
Although Much Work Is Needed to Ensure Proper Implementation




                                                      Page 23
    Standard Database Security Configurations Are Adequate,
Although Much Work Is Needed to Ensure Proper Implementation




                                                      Page 24
    Standard Database Security Configurations Are Adequate,
Although Much Work Is Needed to Ensure Proper Implementation




                                                      Page 25
